<html>
<title> - NOMINATION OF WAYNE A. ABERNATHY</title>
<body><pre>[Senate Hearing 107-743]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-743
 
                    NOMINATION OF WAYNE A. ABERNATHY
=======================================================================




                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

    NOMINATION OF WAYNE A. ABERNATHY, OF VIRGINIA, TO BE ASSISTANT 
          SECRETARY OF THE TREASURY FOR FINANCIAL INSTITUTIONS

                               __________

                           SEPTEMBER 12, 2002

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs









                       U. S. GOVERNMENT PRINTING OFFICE
82-475                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  PAUL S. SARBANES, Maryland, Chairman

CHRISTOPHER J. DODD, Connecticut     PHIL GRAMM, Texas
TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
ZELL MILLER, Georgia                 CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JIM BUNNING, Kentucky
JON S. CORZINE, New Jersey           MIKE CRAPO, Idaho
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada

           Steven B. Harris, Staff Director and Chief Counsel
             Wayne A. Abernathy, Republican Staff Director
                  Martin J. Gruenberg, Senior Counsel
   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator
                       George E. Whittle, Editor

                                  (ii)















                            C O N T E N T S

                              ----------                              

                      THURSDAY, SEPTEMBER 12, 2002

                                                                   Page

Opening statement of Chairman Sarbanes...........................     1

Opening statements, comments, or prepared statements of:
    Senator Gramm................................................     2
    Senator Shelby...............................................     6
    Senator Hagel................................................     6
    Senator Bunning..............................................     6

                                NOMINEE

Wayne A. Abernathy, of Virginia, to be Assistant Secretary of the 
  Treasury for Financial Institutions............................     3
    Prepared statement...........................................     6
    Biographical sketch of nominee...............................     8
    Response to written question of Senator Akaka................    15

              Additional Material Supplied for the Record

Letter to Senator Paul S. Sarbanes from Neil Milner, President 
  and CEO, Conference of State Bank Supervisors, dated September 
  11, 2002.......................................................    16
Letter to Senator Paul S. Sarbanes from William J. Donovan, 
  Senior Vice President and General Counsel, National Association 
  of Federal Credit Unions, dated September 11, 2002.............    17
Letter to Senator Paul S. Sarbanes from Daniel A. Mica, President 
  and CEO, Credit Union National Association, Inc., dated 
  September 12, 2002.............................................    18

                                 (iii)













                             NOMINATION OF
                    WAYNE A. ABERNATHY, OF VIRGINIA
                    TO BE ASSISTANT SECRETARY OF THE
                  TREASURY FOR FINANCIAL INSTITUTIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2002

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.

    The Committee met at 2:45 p.m., in room SD-538 of the 
Dirksen Senate Office Building, Senator Paul S. Sarbanes 
(Chairman of the Committee) presiding.

         OPENING STATEMENT OF CHAIRMAN PAUL S. SARBANES

    Chairman Sarbanes. The Committee will come to order.
    This afternoon, we will first hold a hearing on the 
nomination of Wayne A. Abernathy to be Assistant Secretary of 
the Treasury for Financial Institutions.
    Upon the completion of that hearing, the Committee will 
then proceed to a mark-up session to consider the FHA 
Downpayment Simplification Act, the Native American Housing 
Assistance and Self-Determination Act, and to consider the 
nomination of Mr. Wayne A. Abernathy, whose hearing would have 
been completed shortly before.
    I will just be very brief in my opening statement here.
    Wayne Abernathy is well known to all Members of the 
Committee. He has faithfully and loyally served the Committee 
with distinction since July 1981, more than 20 years now, in a 
variety of positions, including Full Committee Staff Director, 
Minority Staff Director, Staff Director of the Securities 
Subcommittee, an economist for the Subcommittee on 
International Finance and Policy, the Republican Economist on 
the Committee--I always thought that was Senator Gramm, but it 
was really Wayne Abernathy.
    [Laughter.]
    Wayne has been involved in every major piece of legislation 
which has been considered by the Committee since 1981. Some of 
those in which he has had the most direct impact include Gramm-
Leach-Bliley, the National Securities Markets Improvement Act, 
revisions to the Export Administration Act, the Securities 
Litigation Reform Act, and I could just go through the entire 
list.
    He has been very intimately involved with the legislative 
product of this Committee. Throughout his career, he has had a 
deep interest in international trade and finance issues, and I 
am proud to say, he is a graduate of Johns Hopkins University 
and the Johns Hopkins School of Advanced International Studies.
    I think it is a fair to say that he is a consummate 
professional, straightforward, honest, loyal to his principles 
and his party. He is smart, hard-working. He has always 
fulfilled his duties in a fashion that I think exemplifies the 
highest traditions of the Senate.
    I regard him as very well qualified to be the Assistant 
Secretary of Treasury for Financial Institutions. That office, 
of course, coordinates the Department's efforts regarding 
financial institutions and securities markets and their 
regulation. It also coordinates the Department's efforts on 
financial education, on which this Committee has placed a great 
deal of emphasis.
    We look forward to working with Wayne in his capacity as 
the Assistant Secretary for Financial Institutions.
    We will miss him here on the Committee, but obviously, I 
wish him well in his new job.
    Senator Gramm.

                STATEMENT OF SENATOR PHIL GRAMM

    Senator Gramm. Well, thank you, Mr. Chairman. I do not 
quite know what I can say about this good man, other than a 
famous philosopher once said--in no way can you get a keener 
insight into the nature of a leader than by looking at the 
people with whom he surrounds himself.
    I have always been very proud to have people judge me by 
Wayne Abernathy.
    The plain truth is that everyone who has ever been in the 
Senate knows that often the Senator is simply the front guy. 
And for all practical purposes, when I was Chairman, Wayne 
Abernathy was Chairman of the Committee.
    All of the daily details, all of the work, he was always on 
top of everything. I can say that in all the years that I 
worked with Wayne, I have never heard him say or seen him do 
anything that was not honorable.
    So, I am very excited about this opportunity for him to 
serve. I have no doubt that he will reflect well on the 
Administration. I have no doubt that he will do a great job. 
And I am just grateful that I had an opportunity to work with 
Wayne.
    Wayne, I want to thank you for the great job you did as the 
Staff Director and Minority Staff Director and all these other 
positions. In fact, Wayne started here as an intern.
    Just one other thing I would like to say. I probably ought 
not 
to say this. My mother will hear it and I will hear no end of 
it. 
But when the FBI agent came to ask me about Wayne, his first 
question was: Can you tell me something about Wayne's moral 
character?
    And so, I thought a minute and I started my answer by 
saying, I never knew Jesus.
    [Laughter.]
    But Wayne Abernathy is about as close in terms of character 
as I have come.
    Mr. Abernathy. Thank you, Senator.
    Chairman Sarbanes. Well, that is a heavy thing to hang on 
somebody.
    [Laughter.]
    Senator Bunning. That is heavy.
    [Laughter.]
    Senator Schumer. Vote, Mr. Chairman. What more can be said?
    [Laughter.]
    Chairman Sarbanes. Before we go to the nominee's statement, 
as he well knows, it is the custom in this Committee to place 
our nominees under oath. I am going to ask him to stand and 
take 
the oath.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Abernathy. I do.
    Chairman Sarbanes. Do you agree to appear and testify 
before any duly-constituted committee of the U.S. Senate?
    Mr. Abernathy. I do.
    Chairman Sarbanes. Thank you very much. We would be happy 
to hear your statement.

          STATEMENT OF WAYNE A. ABERNATHY, OF VIRGINIA

           TO BE ASSISTANT SECRETARY OF THE TREASURY

                   FOR FINANCIAL INSTITUTIONS

    Mr. Abernathy. If I could, Mr. Chairman, I would like to 
begin by introducing my family, most of which is here today.
    Chairman Sarbanes. We would love for you to do that.
    Mr. Abernathy. My wife, Cindy. And she has brought two of 
my daughters and two of my sons with her. My second-oldest 
daughter is Cindy, named for her mother. My daughter Katie. And 
my son Joseph. And my son Peter, who is being very good today.
    [Laughter.]
    Chairman Sarbanes. Terrific.
    Mr. Abernathy. My oldest daughter would have been here, but 
she is in Provo, Utah right now where she is a sophomore at 
Brigham Young University.
    We are going to tape this and send it to her.
    Chairman Sarbanes, Senator Gramm, and Members of the 
Committee, by custom, my first task should be to thank you for 
holding this hearing on my nomination, and for doing so in an 
expedited fashion--and I am indeed grateful for that--but I 
would like to take the liberty to depart from that custom. I 
would begin by thanking you and the Members of this Committee 
for the privilege I have had over the last 20 years to serve 
you and the many other Senators who have also been Members of 
this Committee, and to thank you for the many considerations 
that you have extended to me during that time. I would tender 
that appreciation also to my colleagues on the staff, from my 
first staff director, Chairman Jake Garn's Chief of Staff, 
Danny Wall, to Steve Harris today, and to the many talented and 
dedicated professionals who have worked with us during that 
time.
    I am reminded of a frequent comment that one of my 
colleagues on Senator Jake Garn's staff used to make. She liked 
to say to us that it was such a privilege to work for the U.S. 
Senate that we should be working for free. I understood the 
power of her sentiment, but I resisted her prescription.
    [Laughter.]
    Senator Gramm has taken that concept a step further. He 
occasionally remarks to the staff that we are learning so much 
here in the Senate that we should be paying tuition.
    [Laughter.]
    Again, there is great force in that idea, and again, I 
resist the implications.
    [Laughter.]
    I have been in Senator Gramm's graduate program now for 15 
years. And until today, I have been able to avoid graduation. 
And there is no possibility that I could ever cover the value 
of the education that I have received.
    It was Senator Gramm who said, ``If you are willing to 
tackle the tough issues, you do not need to worry about 
stepping on anyone's toes; they will stand aside and shove you 
to the front.'' It has been a real pleasure working with 
Senator Gramm on the tough issues.
    The Senate, in addition to many things, is a great academy. 
It is as much a place of learning as it is a place of doing. 
And it is the learning and the doing that I believe qualify me 
for the next step before me.
    And so I express my gratitude to President Bush, with a 
mixture of pride and humility, for extending to me the 
opportunity to serve the people of this Nation in a new and 
challenging capacity.
    I am eager to begin work with this Administration and the 
team of outstanding people that President Bush has brought 
together. I am grateful for the support that I have received 
from Treasury Secretary O'Neill, from Deputy Secretary Dam, and 
from Under Secretary Fisher. Having worked from the late 1970's 
until now on the making of laws affecting our financial 
institutions, I feel prepared to become involved in the 
administration of those laws, with the keen insight of 
experience into the intentions of the Congress in the making of 
those laws.
    In one of the several interviews that I went through for 
this job, the discussion moved to my feelings about the 
Congress. My thoughts turned to a time, when I was just a 
young, rather junior member of the staff of this Committee. I 
was thinking of a warm evening, when I had left the Capitol 
building to walk back to my office. Rather than going 
underground, I walked outside. The Senate had just ended the 
day, passing legislation that I had been working on--I think 
that it was a bill amending the Export Administration Act--we 
are still working on that.
    [Laughter.]
    It was one of those beautiful nights, with the white dome 
of the Capitol shining against the dark sky--we have all seen 
that. And while I was charmed by the beauty of that scene, I 
was even more exhilarated by the experience I had just left. I 
was thrilled by the thought, by the overwhelming sense of the 
power of the Constitution, that it works, that 100 men and 
women, from all parts of the country, elected by their fellow 
citizens to represent their various States, had come together 
here and made a decision that was now the law of the land for 
over 200 million people. That thought still exhilarates and 
charms me. It has been a privilege to have lent a hand in that 
process.
    With this deep and broad experience behind me, I believe 
that I am ready for duty at Treasury, with a full, deep 
understanding of the interaction of the Executive and 
Legislative Branches and how they work together to meet the 
needs, the concerns, and the interests of the people who 
elected our leaders and whom we are called upon to serve.
    The job of Treasury's Assistant Secretary for Financial 
Institutions is particularly well-suited for such a background. 
Nearly all of our financial institutions are overseen by 
regulators with varying degrees of institutional independence, 
placed somewhere between the two branches of Government. I 
believe they have been so situated to meet two very important 
goals--to minimize political influence in the regulation of our 
financial institutions while retaining adequate accountability 
over the regulators. That accountability can best be 
maintained, then, in cooperation between the two branches, 
addressing the issues on the basis of principles and sound 
policies. And while that may seem nice to say in theory, it has 
been my experience that it works that way in practice. And if 
confirmed, it is my intention to continue that productive 
tradition.
    Thank you again for holding this hearing, and now I would 
be pleased to respond to any questions you may have.
    Chairman Sarbanes. Well, thank you very much for a very 
thoughtful statement.
    Ordinarily, we subject nominees to policy questions and so 
forth. But I think transcending that is to take a measure of 
people's character and commitments to the workings of our 
democratic institutions. We have had more than ample 
opportunity to do that in Wayne Abernathy's case. For myself, I 
am quite prepared to move forward without any questions. And I 
will defer to any of my colleagues who may have questions.
    [No response.]
    If not, Wayne, we thank you very much and we will excuse 
you, and we will move on to our mark-up.
    Mr. Abernathy. Thank you very much, Mr. Chairman.
    Chairman Sarbanes. We are delighted to have seen your 
family and to have them here with you.
    Mr. Abernathy. Thank you.
    [Applause.]
    [Whereupon, at 3 p.m., the Committee concluded the 
nomination hearing of Wayne A. Abernathy.]
    [Prepared statements, biographical sketch, response to 
written questions, and additional material supplied for the 
record follow:]
            PREPARED STATEMENT OF SENATOR RICHARD C. SHELBY
    Mr. Chairman, I want to commend you for facilitating the 
Committee's rapid consideration of Wayne Abernathy's nomination for the 
position of Assistant Secretary of the Treasury for Financial 
Institutions.
    It is not very often that we consider a nominee with whom we are as 
familiar as we are with Wayne. For years now, I, as well as the other 
Members of the Committee, have had a firsthand opportunity to observe 
his efforts as a member of the Committee staff. Through his tenure, he 
has demonstrated that he possesses a significant intellect, 
considerable wisdom, strong character, and a tremendous work ethic. 
Wayne's service to the Committee has been outstanding and I would like 
to commend and thank him for it. Needless to say, someone with Wayne's 
qualities will be truly missed on Capitol Hill. However, our loss is 
the Administration's gain. I am supremely confident that he will 
provide President Bush and Secretary O'Neill with the same level of 
excellent service that he afforded Senators Garn, Gramm and all the 
Members of the Committee.
    Again, I want to thank Wayne for his contributions as a member of 
the Committee staff, and to wish him good luck on his next endeavor.
                               ----------
               PREPARED STATEMENT OF SENATOR CHUCK HAGEL
    I strongly support the nomination of Wayne Abernathy to be 
Assistant Secretary of the Treasury for Financial Institutions. The 
expedited process to confirm Wayne is a testament to the respect he has 
gained from colleagues and Senators.
    Wayne's staff leadership on the Senate Banking Committee over the 
past 3 years has been marked with significant accomplishments--from the 
substantial Financial Services Modernization Act, to dozens of trade, 
banking, and housing bills. Through Senator Gramm, Wayne has been a 
great defender of the free markets. The Department of the Treasury will 
greatly benefit from his experience and wise command.
    We have all benefitted from Wayne's guidance over the years. His 
presence will be missed at the Senate Banking Committee.
                               ----------
               PREPARED STATEMENT OF SENATOR JIM BUNNING
    Thank you Mr. Chairman, I want to thank you for holding this 
hearing on the nomination of Wayne A. Abernathy, and quickly moving on 
the President's nominee. I also want to thank you for the mark-up of 
the important housing bills we will move today. I would like to welcome 
Wayne this afternoon, and not only thank him for his service to this 
Committee, but also for his willingness to continue to answer the call 
to public service. Obviously, we all know Wayne very well. Although his 
departure will be a great loss to the Banking Committee, he will be a 
great asset to the President at the Treasury Department.
    You have been nominated for a big job. But I am more than confident 
that you are up to it. Your service to this Committee speaks for 
itself. I believe the President could not have picked a better man for 
the job. You are well deserving. As I said in our meeting earlier this 
week, anyone who has worked for Senator Phil Gramm as long as you have 
deserves something good.
    I am also glad we are going to be marking up these small, but 
important housing bills. I am a proud cosponsor S. 2239, the FHA Down 
Payment Simplification Act. I believe S. 2239 will help get more people 
into their homes, a goal we all support. I will also support S. 1210 
the Native American Housing Assistance and Self-Determination Act. I 
look forward to hearing from our good friend Wayne Abernathy and trust 
the Committee will support his nomination and these important housing 
bills.
    Thank you, Mr. Chairman.
                               ----------
                PREPARED STATEMENT OF WAYNE A. ABERNATHY
                 Nominee for Assistant Secretary of the
                  Treasury for Financial Institutions
                           September 12, 2002
    Chairman Sarbanes, Senator Gramm, Members of the Committee, by 
custom, I should thank you for holding this hearing on my nomination, 
and for doing so in such an expedited fashion--and I am indeed grateful 
for that--but I would like to take the liberty to depart from that 
custom. I would begin by thanking you and the Members of the Committee 
for the privilege I have had for some 20 years to serve you and the 
many other Senators who have been Members of this Committee, and to 
thank you for the many considerations that you have extended to me 
during that time. I would tender that appreciation also to my 
colleagues on the staff, from my first staff director, Danny Wall--
Chairman Jake Garn's Chief of Staff--to Steve Harris today, and to the 
many talented and dedicated professionals who have worked with us.
    I am reminded of a frequent comment of one of my colleagues from 
the staff of Senator Jake Garn. She liked to say to us that it was such 
a privilege to work for the Senate that we should be working for free. 
While I understood the power of her sentiment, I resisted her 
prescription.
    Senator Gramm has taken that concept a step further. He has 
occasionally remarked to the staff that we are learning so much that we 
should pay tuition. Again, there is great force in that idea, and 
again, I resist the implications. I have been in Senator Gramm's 
graduate program for 15 years (and until today avoided graduation), and 
there is no way that I could cover the value of that education.
    It was Senator Gramm who said, ``If you are willing to tackle the 
tough issues, you do not need to worry about stepping on anyone's toes; 
they will stand aside and shove you to the front.'' I have enjoyed 
working with Senator Gramm on the tough issues.
    The Senate, in addition to many things, is a great academy. It is 
as much a place of learning as it is a place of doing. And it is the 
learning and the doing that I believe qualify me for the next step 
before me.
    And so now I express my gratitude to President Bush for extending 
to me the opportunity to serve the people of this Nation in a new and 
challenging capacity. I am eager to begin working in his 
Administration, with the team of outstanding people he has brought 
together. I am grateful for the support that I have received from 
Treasury Secretary O'Neill, Deputy Secretary Dam, and Under Secretary 
Fisher. Having worked from the late 1970's until now on the making of 
laws affecting our financial institutions, I feel prepared to become 
involved in the administration of those laws, with the keen insight of 
experience into the intentions of the Congress in their making.
    In one of the several interviews I went through for this job, the 
discussion moved to my feelings about the Congress. My thoughts turned 
to a time, when I was just a young, rather junior member of the staff 
of this Committee. I was thinking of a warm evening, when I had left 
the Capitol building to walk back to my office. The Senate had just 
ended the day, passing legislation that I had been working on--I think 
it was a bill amending the Export Administration Act. It was one of 
those beautiful nights, with the white dome of the Capitol gleaming 
against the dark sky. While charmed by the beauty of the scene, I was 
even more exhilarated by the experience I had just left. I was thrilled 
by the thought, the overwhelming sense of the power of our 
Constitution, that it works, that 100 men and women, from all parts of 
the country, elected by their fellow citizens to represent their 
States, had come together here and made a decision that was now the law 
of the land for over 200 million people. That thought still exhilarates 
and charms me. It has been a privilege to lend a hand in that process.
    And now, with this deep and broad experience behind me, I believe 
that I am ready for duty in the Treasury Department, with a full, deep 
understanding of the interaction of the Executive and Legislative 
Branches and how they work together to meet the needs, concerns, and 
interests of the people who elected our leaders and whom we are called 
upon to serve.
    The job of Treasury's Assistant Secretary for Financial 
Institutions is particularly well-suited for such a background. Nearly 
all of our financial institutions are overseen by regulators with 
varying degrees of institutional independence, placed somewhere between 
the two branches of Government. I believe that they have been so 
situated to meet two important goals: to minimize political influence 
in the regulation of our financial institutions while retaining 
adequate accountability over the regulators. That accountability can 
best be maintained, then, in cooperation between the two branches, 
addressing the issues on the basis of principles and sound policies. 
And while that may seem nice to say in theory, it has been my 
experience that it works that way in practice. And if confirmed, it is 
my intention to continue that productive tradition.
    I would be pleased to answer any questions that you may have.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         RESPONSE TO WRITTEN QUESTION OF SENATOR AKAKA 
                      FROM WAYNE ABERNATHY

Q.1. As you know, financial literacy is a subject of great 
importance to many Members of the Banking Committee. Please 
describe your thoughts on the importance of financial literacy, 
describe the appropriate role for the Department of the 
Treasury to increase the financial literacy of the public, and 
what will you do to improve the financial literacy efforts of 
the Department of the Treasury?

A.1. I know from several public remarks made by Treasury 
Secretary O'Neill that he shares the concern that you, Chairman 

Sarbanes, and other Members of the Committee have for promoting 

financial literacy. I share that interest as well. Early in my 
career on the staff of Senator Jake Garn I was frequently 
dismayed when I heard of serious financial problems in which 
people found themselves that I believed could have been avoided 
had they had a better understanding of basic economic and 
financial matters.
    In my service with Senator Gramm I became acquainted with 
the excellent financial and investor literacy program designed 
by the Texas State Securities Board. The Texas State Securities 
Board has been very successful in introducing their Teaching 
Guide in high schools throughout the State, with over 2,000 
copies of the guide placed in schools so far. This, and similar 
programs, can be models for efforts elsewhere.
    I have had the opportunity of guest lecturing at schools at 
the elementary, middle school, and high school levels, and I 
have always found the children eager to learn. These are 
matters that they can understand, that they want to learn, and 
that our children need to know in order to be successful 
adults.
    I believe that high school is the best (though not the 
only) place to target our efforts. It is where we can have the 
greatest results. High school students are thinking about 
financial matters. Many have jobs; virtually all are 
considering what their careers will be. They worry about 
whether they will have the finances for college and other post 
high school education. They are eager and able to learn. Basic 
financial and economic education after high school can be 
important as well, but in many cases we are already at that 
point talking about remedial education, working with people who 
have already gotten into financial difficulties that could have 
been avoided or who have established habits that are difficult 
to leave.
    Perhaps most significant as a measure of the emphasis of 
the Treasury on financial and economic education has been the 
creation of the institutional support for an ongoing, 
sustainable effort. In May, Secretary O'Neill announced the 
establishment in the Treasury of the Office of Financial 
Education, led by a Deputy Assistant Secretary. That Office 
organized a panel discussion with national youth education 
groups in May to explore the opportunities and obstacles 
associated with integrating financial education into math and 
reading curricula, and will be releasing a White Paper on the 
topic soon. I am pleased that, if I am confirmed, this Deputy 
Assistant Secretary will report to me. I look forward to 
working closely with her and with the Congress, and with the 
many excellent private sector programs, to achieve accelerated 
progress in our efforts.


</pre></body></html>
